No. 20-1119

 

IN THE

Supreme Court of the United States

AMARIN PHARMA, INC. ET AL., PETITIONERS,

Vv.

HIKMA PHARMACEUTICALS USA INC., ET AL.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,523 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 18, 2021.

Colin Casey loons

Wilson-Epes Printing Co., Inc.
